Audit Report




OIG-12-038
BILL MANUFACTURING: Improved Planning and Production
Oversight Over NexGen $100 Note Is Critical
January 24, 2012



 This report was revised on January 26, 2012, to adjust
 the image of the NexGen $100 Note specimen on page 4
 to be in conformity with 31 C.F.R. 411.



Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents



Audit Report

Results in Brief ................................................................................................ 2

Background ..................................................................................................... 4

Findings ........................................................................................................ 6

    NexGen $100 Note Production Testing Was Not Sufficient .............................. 6

    NexGen $100 Note Project Management Was Lacking ..................................... 9

    Cost-Benefit Analysis for the Disposition of Finished NexGen $100 Notes
    Is Incomplete .............................................................................................. 10

Recommendations ............................................................................................ 12

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................              16
    Appendix     2:      Timeline of Key Events ..........................................................      18
    Appendix     3:      BEP Management Response ...................................................            20
    Appendix     4:      FRB Management Response ...................................................            22
    Appendix     5:      Major Contributors to This Report ...........................................          24
    Appendix     6:      Report Distribution ................................................................   25

Abbreviations

    ACD                  Advanced Counterfeit Deterrence Steering Committee
    BEP                  Bureau of Engraving and Printing
    ECF                  Eastern Currency Facility
    FRB                  Board of Governors of the Federal Reserve System
    ICD                  Interagency Currency Design Group
    GAO                  Government Accountability Office
    MOU                  memorandum of understanding
    OIG                  Office of Inspector General
    WCF                  Western Currency Facility



                         Improved Planning and Production Oversight Over NexGen $100 Note                    Page i
                         Is Critical (OIG-12-038)
             This Page Intentionally Left Blank




Improved Planning and Production Oversight Over NexGen $100 Note   Page ii
Is Critical (OIG-12-038)
                                                                                         Audit
OIG
The Department of the Treasury
                                                                                         Report
Office of Inspector General




                      January 24, 2012

                      Larry R. Felix
                      Director
                      Bureau of Engraving and Printing

                      As part of our ongoing audit of the Bureau of Engraving and
                      Printing’s (BEP) production of the NexGen $100 notes, we are
                      issuing this report on our findings with regard to project
                      management. This is the second report issued in connection with
                      our audit. 1

                      The Department of the Treasury (Treasury) Office of Inspector
                      General’s (OIG) Office of Audit and Office of Investigations are
                      jointly performing this audit to address significant problems
                      encountered by BEP in the production of the NexGen $100 notes
                      and in response to a request from the Department’s Assistant
                      Secretary for Management and Chief Financial Officer. Production
                      problems with the NexGen $100 note led to BEP suspending
                      manufacturing of the notes and a decision by the Board of
                      Governors of the Federal Reserve System (FRB) to delay their initial
                      issuance, which had been planned for February 2011. In
                      conjunction with FRB, BEP has been conducting tests to resolve
                      problems before resuming full production.

                      Our objectives are to assess (1) the planning and implementation of
                      the production process and the events that led to the problems in
                      the production process; (2) the physical security over the notes
                      that have been produced; (3) BEP’s plans for the disposition of
                      those notes; and (4) BEP’s actions, taken and planned, to address
                      the production problems. We performed our audit fieldwork from
                      December 2010 to October 2011. Because of the coordinated
                      efforts by BEP and FRB involved in the design, development, and

1
 Our first report was Bill Manufacturing: Improved Security Over the NexGen $100 Notes Is Necessary,
OIG-11-068 (May 13, 2011). This report is available at
http://www.treasury.gov/about/organizational-structure/ig/Pages/by-agency-2011.aspx.

                      Improved Planning and Production Oversight Over NexGen $100 Note        Page 1
                      Is Critical (OIG-12-038)
                       production of the NexGen $100 notes, we coordinated our audit
                       with the FRB OIG who will issue a separate report to FRB. 2
                       Appendix 1 contains a more detailed description of our audit
                       objectives, scope, and methodology.

Results in Brief
                       We consider the delayed introduction of the NexGen $100 note to
                       be a production failure that potentially could have been avoided
                       and has already resulted in increased costs. We found that BEP did
                       not (1) perform necessary and required testing to resolve technical
                       problems before starting full production of the NexGen $100 note,
                       (2) implement comprehensive project management for the NexGen
                       $100 note program, and (3) adequately complete a comprehensive
                       cost-benefit analysis for the disposition of the approximately 1.4
                       billion finished NexGen $100 notes already printed but not
                       accepted by FRB. 3 Accordingly, before resuming full production of
                       the NexGen $100 note, we recommend that BEP complete
                       production validation tests to ensure technical problems are
                       resolved. BEP should also implement a comprehensive and
                       integrated project management function for the NexGen $100 note
                       program, as well as for future note designs. In addition, we
                       recommend that BEP, in coordination with FRB, complete a
                       comprehensive cost-benefit analysis before making decisions
                       related to the disposition of the NexGen $100 notes that have not
                       been accepted by FRB.

                       In response to our audit objective to review the physical security of
                       the NexGen $100 notes, we issued an interim report in May 2011
                       noting three findings. 4 We plan to issue a separate report to follow
                       up on the recommendations made in that report and to
                       communicate any additional security findings going forward.




2
  The FRB OIG is reviewing the activities of FRB in connection with the NexGen $100 note program.
3
  FRB entered into an agreement with BEP in 2009 for the fiscal year 2010 currency order and agreed
to pay $117.98 per 1,000 NexGen $100 notes upon acceptance. Based on the established rate, the
charge for the approximate 1.4 billion notes produced is estimated at $165 million. Although FRB has
not accepted delivery of these notes, they paid a surcharge that included the costs for producing the
notes.
4
  OIG-11-068 (May 13, 2011)

                       Improved Planning and Production Oversight Over NexGen $100 Note          Page 2
                       Is Critical (OIG-12-038)
                      Management Response

                      In a written response, BEP management provided their corrective
                      actions taken or planned to implement the recommendations. The
                      management response is summarized in the Recommendations
                      section of the report and the text of the response is included as
                      appendix 3.

                      Because our report refers to FRB’s role in the Advanced Counterfeit
                      Deterrence Steering Committee (ACD) 5 and the Interagency
                      Currency Design Group (ICD) 6 , we provided a copy of our report to
                      FRB management for comment. In a written response, FRB
                      management stated its support for our recommendations. Even so,
                      FRB commented that it did not believe that the sporadic creasing
                      problem would have been identified during a limited initial
                      production test because the problem was not identified until after a
                      significant number of notes had been printed, far larger than would
                      have been produced for testing purposes. FRB did note that the
                      actions taken in response to our recommendation regarding
                      production validation tests will provide a more effective method to
                      identify and resolve technical problems before beginning full-scale
                      production of any new note designs. However, although the more
                      robust production validation process should substantially reduce
                      unforeseen production problems, it will likely not eliminate them
                      completely. The text of FRB’s management response is included as
                      appendix 4.

                      OIG Comment

                      We believe BEP’s corrective actions, taken and planned, are
                      responsive to our recommendations. With respect to FRB’s
                      comment that the sporadic creasing problem would not have been
                      caught by limited initial production tests, we believe it is important
                      to note, as discussed later in this report, that a number of technical

5
  The ACD was formed in July 1982 to coordinate the counterfeit deterrence activities of the various
government agencies involved with United States currency. The steering committee is chaired by the
Treasury Under Secretary for Domestic Finance, or his or her designee, and is comprised of senior
executives from Treasury, BEP, FRB, and United States Secret Service. The current Chair is the
Treasurer of the United States.
6
  The ICD was established by the ACD to provide guidance on design and other subjects related to new
currency. The ICD includes members from BEP, FRB, and the United States Secret Service.

                      Improved Planning and Production Oversight Over NexGen $100 Note        Page 3
                      Is Critical (OIG-12-038)
             problems were known and not resolved before the start of full
             production.

Background
             BEP produces billions of United States (U.S.) currency notes for
             delivery to FRB each year. BEP has two production facilities, the
             Eastern Currency Facility (ECF), located in Washington, DC, and
             the Western Currency Facility (WCF), located in Fort Worth, Texas.

             The process for design, development, production, and issuance of
             the NexGen notes is a multi-year effort involving Treasury, BEP,
             FRB, and the U.S. Secret Service (Secret Service). The ACD
             coordinates the counterfeit deterrence activities of the agencies
             and provides recommendations on currency design to the Secretary
             of the Treasury who has sole statutory authority to approve new
             currency designs. The ICD was established by the ACD to provide
             guidance on design and other subjects related to new currency.
             The ICD met regularly and actively participated in the design and
             development of the NexGen $100 note.

             The NexGen $100 note is the latest denomination of currency to
             be redesigned with enhanced security features and is considered
             the most advanced note produced by BEP. Among other things, the
             new note design has two advanced security features including a
             3-D security ribbon woven into the paper and a color-shifting bell in
             an inkwell, as shown in figure 1.

             Figure 1 – NexGen $100 Note




                                    3-D Ribbon                      Bell in the inkwell
                    Source: BEP’s The New $100 Note poster from www.newmoney.gov




             Improved Planning and Production Oversight Over NexGen $100 Note             Page 4
             Is Critical (OIG-12-038)
                       BEP began producing the NexGen $100 notes in January 2010,
                       with an anticipated FRB issuance in February 2011. During
                       production, BEP noticed sporadic creasing of the notes in April
                       2010, and a more concentrated occurrence of creasing in June
                       2010. 7 Shortly thereafter, in July 2010, BEP began working with
                       the currency paper supplier to determine the cause of the creasing
                       problem. BEP suspended production at WCF in September 2010
                       and conducted manual/visual inspections of individual notes to
                       obtain data about the extent of the creasing problem. 8 Based on
                       the data gathered, BEP officials estimated that less than 1 percent
                       of the notes produced were flawed. However, that estimate was
                       not based on valid statistical sampling techniques so an exact error
                       rate was not determined.

                       Figure 2 shows examples of severe creasing found during the
                       inspection.

Figure 2 – Creasing Examples




                       Source: BEP. Images are magnified




7
  FRB categorized the creasing problems as severe, moderate, and light. Severe creases are easily visible
to the naked eye and are evidenced by the folding of the currency paper which, when stretched, will
exhibit an opening and show a break in printing. In contrast, moderate creases are less obvious but still
visible to the naked eye, whereas light creases typically require magnification to detect.
8
  BEP continued production at ECF, but at a reduced rate.

                       Improved Planning and Production Oversight Over NexGen $100 Note           Page 5
                       Is Critical (OIG-12-038)
           BEP and FRB officials stated that issuing flawed notes could cause
           the public to question note authenticity, particularly abroad where
           U.S. currency is scrutinized more closely. In October 2010, FRB
           announced a delay in the issuance of the NexGen $100 notes and
           has not accepted delivery of any of the finished notes. In February
           2011, BEP coordinated with FRB, a management consulting firm
           under contract with FRB, and the currency paper supplier to
           perform research and testing to understand and address the
           creasing problem. BEP officials stated that due to the proprietary
           nature of the supplier’s paper manufacturing process, BEP did not
           receive documentation from the supplier about changes made to
           the currency paper until a year after BEP brought the creasing
           problem to the supplier’s attention. Accordingly, it was not until
           BEP received documentation dated June 2011, that it knew the
           specific changes made to the paper during production in early
           2010. The research and tests performed show evidence of certain
           paper properties that have a strong correlation to creasing, but the
           tests have not identified the root cause of the problem. Since BEP
           stopped full production of the notes, the parties developed a
           production validation plan that, once successful results are
           achieved, will enable full production to resume. BEP began initial
           validation in September 2011 with the goal of resuming full
           production in 2012. Success assumes the technical problems are
           resolved and agreement to proceed is reached by BEP and FRB.

           Appendix 2 contains a timeline of key events related to the design,
           development, and production of the NexGen $100 notes.

Findings
           NexGen $100 Note Production Testing Was Not
           Sufficient
           Following BEP’s production problems with a redesigned $50 note in
           1997, the Government Accountability Office (GAO), in testimony
           to the Congress, recommended that the Secretary of the Treasury
           and FRB limit the initial production of newly designed currency to a
           quantity necessary to provide reasonable assurance that all




           Improved Planning and Production Oversight Over NexGen $100 Note   Page 6
           Is Critical (OIG-12-038)
                       production problems are resolved. 9 GAO also recommended that a
                       written agreement be established that includes the initial
                       production quantity. As a result of the GAO testimony, BEP and
                       FRB signed a memorandum of understanding (MOU) in 1998
                       stating, among other things, that they would mutually establish a
                       limited initial production quantity of newly designed currency to
                       ensure that all technical problems are identified and resolved prior
                       to full production.

                       Contrary to GAO’s recommendation and the MOU, a limited initial
                       production quantity was not established by BEP and FRB and all
                       known technical problems were not resolved prior to starting full
                       production of the NexGen $100 note. While BEP conducted
                       preproduction testing during 2008 and 2009 of individual design
                       and security features, additional testing of a final approved note
                       design should have been done to ensure that technical problems
                       were resolved. Also complicating matters, the note’s security
                       features continued to be modified by the ICD as late as January
                       2010, the same month that production began. In addition, certain
                       technical problems were identified during development and not fully
                       resolved before full production began. 10 These problems resulted in
                       numerous delays, and when production was scheduled to begin,
                       the start date was not adjusted to add time for the necessary
                       testing of the final note design. Some of the problems encountered
                       in full production were the same ones encountered and not
                       resolved during the development phase. 11

                       BEP officials told us that the NexGen $100 note testing process
                       was consistent with practices used on past note designs and they
                       believed that the technical problems they were experiencing could
                       be managed during full production through a continuous
                       improvement effort. They stated that the decision to start
                       production in January 2010 was a judgment call made after
                       evaluating the results of testing performed and the desire to meet a

9
 Testimony before the Subcommittee on Domestic and International Monetary Policy, Committee on
Banking and Financial Services, House of Representatives (GAO-T-GGD-98-8, Printing of Flawed
Redesigned $50 Notes, Oct. 1, 1997).
10
   Among other issues, the ICD documented problems with the 3-D security ribbon and “wrinkling” of
the currency paper. In addition, NexGen $100 notes status reports provided to BEP management
documented “trash,” which are particles of currency paper that would come off during manufacturing
and distort the print quality.
11
   The technical problems identified in footnote 10 were also noted during full production in early 2010.

                       Improved Planning and Production Oversight Over NexGen $100 Note             Page 7
                       Is Critical (OIG-12-038)
                       late 2010 NexGen $100 note issuance date being considered at
                       that time. 12

                       We believe that not performing tests on a limited initial production
                       quantity to ensure that all technical problems were resolved before
                       starting full production negatively and significantly impacted
                       production, the quality of the final product, and the related costs.
                       The decision to address technical problems during production
                       resulted in, among other things, ongoing modifications to the
                       currency paper by BEP’s supplier. BEP officials told us that while
                       no root cause of the creasing problem has been determined, there
                       is a correlation between some of the modifications the supplier
                       made during its currency paper manufacturing process and the
                       propensity of the note to crease. BEP officials stated that the
                       supplier made these modifications in an attempt to rectify problems
                       BEP had in full production. It is unclear why the problems were not
                       resolved early in the process because BEP management and
                       members of the ICD were aware of these problems before full
                       production began, as documented in the ICD meeting minutes and
                       BEP NexGen $100 note status reports. We believe that producing a
                       limited initial quantity to resolve all technical issues would have
                       reduced the chance of producing approximately 1.4 billion notes,
                       with an unknown quantity of which has defects, that FRB has yet
                       to accept.

                       As mentioned above, BEP is working with FRB and a management
                       consulting firm hired by FRB. Together, they have produced a
                       written production validation plan that, if the results are successful,
                       will allow BEP to resume full production. BEP began initial
                       validation in September 2011 with the goal of resuming full
                       production in 2012. The new production validation plan includes
                       (1) the quantities to be tested, (2) a description of the full range of
                       tests and variables simulating full production, and (3) identified
                       acceptable outcomes. We reviewed the plan, and if properly
                       implemented, we believe it addresses the intent of the MOU for an


12
   In its management response to our report, included as appendix 4, FRB states that it emphasized to
BEP that it would not finalize the issue date until the ability to produce the volumes needed to meet
domestic and international demand for new NexGen $100 notes was confirmed. According to FRB, it
did not make a decision on an issue date until April 2010, shortly before the unveiling of the new
NexGen $100 note design at the Treasury Department. In this regard, FRB selected a February 2011
issue date (rather than a late 2010 date) to give the BEP additional time to meet FRB’s requirements.

                       Improved Planning and Production Oversight Over NexGen $100 Note          Page 8
                       Is Critical (OIG-12-038)
agreed upon limited initial production quantity to resolve technical
problems before full production. It should be noted that BEP and
FRB have agreed to jointly authorize the decision to resume full
production.

NexGen $100 Note Project Management Was Lacking
BEP did not have a comprehensive and integrated process for
overseeing the entire scope of the NexGen $100 note program.
Program documents we reviewed did not clearly identify processes,
milestones, critical paths, and schedule dependencies related to all
phases of NexGen $100 note activities, including design,
development, public education, production, and note issuance. As
a multi-year effort involving multiple agencies and stakeholders,
effective project planning of the NexGen $100 note program is
critical to control the project scope, schedule, cost, quality, and
deliverables. The lack of comprehensive and integrated project
management for the NexGen $100 note program is a concern in
light of the fact that the note was the most complex redesign of
U.S. currency ever and this was not the first time BEP encountered
a production failure with a new currency product.

Project management is the discipline of planning, organizing,
securing, and managing resources to better ensure the successful
completion of specific project goals and objectives. Effective
project management involves achieving results while managing
constraints, such as scope, time, and budget. The project
management concept is commonly used in the private and public
sectors to help achieve effective and efficient operations.

BEP officials told us that a project manager was assigned to the
NexGen $100 note program from BEP’s Office of Product
Development and Technology. We found, however, that the role
established for the project manager was primarily limited to
monitoring product development testing rather than monitoring the
overall scope of necessary activities. The project manager kept BEP
management and the ICD informed of testing progress. However,
as delays were encountered due to technical setbacks and security
feature modifications, nobody fully assessed the impact of these
events to the program as a whole.



Improved Planning and Production Oversight Over NexGen $100 Note   Page 9
Is Critical (OIG-12-038)
Beginning in 2008, a series of design and development scope and
scheduling changes resulted in NexGen $100 note project delays.
These changes in scope and schedule continued up until the week
that production began in January 2010. The changes were made
without adequate analysis by the ICD or BEP to determine their
impact on cost, schedule, and deliverables. As discussed earlier,
the delays in the design and development phase were so significant
that testing of a limited initial production quantity was not
performed. The focus was on meeting the proposed NexGen $100
note issuance date rather than doing the necessary testing to
ensure that technical problems were resolved and manufacturing
was feasible.

Certain interagency agreements established to guide the project
management process also need to be revised. Because the note
design process has evolved and the design itself is more
sophisticated, collaboration between BEP, FRB, and Secret Service
has become more critical. As of November 2011, BEP and FRB
were negotiating a new MOU to more clearly define their respective
roles and responsibilities. In addition, BEP, FRB, and Secret Service,
as members of the ICD, are operating under a 2009 draft ICD
charter. That document also needs to be reconsidered, and
finalized, including clearly defining the members’ respective roles
and responsibilities for project management. We believe the update
and finalization of these documents should be given priority
attention.

Cost-Benefit Analysis for the Disposition of Finished
NexGen $100 Notes Is Incomplete
There are essentially three options for disposition of the
approximate 1.4 billion NexGen $100 notes that have been
produced but not accepted by FRB. The options are: (1) destroy
and replace all the notes, (2) inspect the notes and destroy only
those that are found to be flawed, and (3) circulate the notes as-is
after higher quality new notes have been in circulation for a few
years. BEP officials stated that the severe creasing problem has
made option 3 unfeasible and they plan to pursue option 2 because
the cost to inspect and reclaim the good notes is less than
option 1, destroy and replace all the notes.



Improved Planning and Production Oversight Over NexGen $100 Note   Page 10
Is Critical (OIG-12-038)
                      Early in our audit, BEP did not have a cost-benefit analysis
                      supporting its preferred option, to inspect the notes and destroy
                      only those that are found to be flawed. In response to our repeated
                      requests, BEP provided piecemeal information over a period of
                      several months in support of its favored disposition decision. For
                      example, BEP provided information documenting that the cost to
                      replace the notes is between approximately $78 million and
                      $92 million depending on spoilage levels during production. That
                      would be in addition to the cost to destroy the notes, which BEP
                      estimates at approximately $800,000. Based on the documents
                      provided, BEP officials stated that the combined costs to destroy
                      and replace the notes exceed the costs of option 2, inspect the
                      notes and destroy only those that are flawed. The information
                      provided is still incomplete as it does not identify all costs,
                      benefits, and risks associated with option 2.

                      Under option 2, the completed notes slated for inspection are
                      already in cut, single-note form. However, BEP’s current
                      technology and equipment cannot detect creasing in the notes. BEP
                      officials told us that they have begun acquisition planning to
                      procure new single-note inspection equipment capable of detecting
                      creasing. A contract award is expected in 2012. BEP estimates
                      total costs in excess of $15 million for the purchase and
                      installation of the equipment. However, BEP officials told us that,
                      at this time, it is unclear whether the existing single-note
                      inspection technology can detect another flaw that has been
                      observed in the finished NexGen $100 notes, “crow’s feet.” 13 In
                      fact, BEP officials stated it is unlikely that the single-note
                      inspection equipment will detect crow’s feet. Additionally, at the
                      time of our audit, FRB’s position was that it would not accept any
                      notes that had a creasing problem. This raises another issue that
                      needs to be considered before purchasing the single-note
                      inspection machines. That is, BEP officials stated that if the
                      tolerance levels of the single-note inspection machines are set to
                      detect all creasing, there could be a significant number of notes
                      that would be falsely rejected by the machines (i.e., notes that
                      meet quality standards are rejected). Accordingly, the cost involved

13
  Crow’s feet are defects which occur in the paper surrounding the 3-D security ribbon. They appear as
small wrinkles or creases that initiate at the ribbon and grow outward at a small angle. According to
BEP officials, the paper supplier has implemented a process change that is anticipated to eliminate
crow’s feet going forward.

                      Improved Planning and Production Oversight Over NexGen $100 Note         Page 11
                      Is Critical (OIG-12-038)
           with false rejects and the quality standards that are ultimately
           established must be factored into any cost-benefit analysis. Our
           review also noted that the cost to replace the notes and the cost to
           inspect the notes do not include labor costs.

           Until these matters are resolved, we believe it is premature for BEP
           to purchase the single-note inspection equipment. We also believe
           that option 1, destroy and replace the notes, needs to be further
           considered in the cost-benefit analysis.

           BEP officials told us that it will take about 2 years before final
           disposition of the notes occurs. In the interim, BEP will need to
           secure and store the existing notes as well as, once production
           resumes, new NexGen $100 notes. BEP officials have stated that
           adequate vault space is an ongoing concern and BEP is in the
           process of addressing storage issues. BEP should ensure that costs
           and risks associated with note storage are also included in any
           cost-benefit analysis.

Recommendations
           We recommend that the Director of BEP:

           1. Ensure BEP completes production validation in conjunction with
              FRB on an agreed-to limited initial production quantity of
              NexGen $100 notes, and that technical problems are resolved
              before resuming full production.

              Management Response

              BEP, Secret Service, and FRB agreed on a production validation
              strategy on August 9, 2011. The parties agreed to conduct a
              staggered production validation on the press lines, which would
              evolve into uninterrupted production if established review
              criteria are successfully met. Production validation will start on
              one production line at the WCF and continue to a second line if
              the first line is successful. Later, one line at ECF will be added.
              BEP may put a third line through the production validation
              process at the WCF if all goes well, and BEP and the paper
              supplier have available production capacity. BEP will not print



           Improved Planning and Production Oversight Over NexGen $100 Note   Page 12
           Is Critical (OIG-12-038)
   the NexGen $100 note on any production line without first
   putting the line through the production validation process.

   OIG Comment

   BEP’s planned actions meet the intent of the recommendation.
   That said, BEP will need to record an estimated date for
   completing its planned actions in the Joint Audit Management
   Enterprise System (JAMES), Treasury’s audit recommendation
   tracking system.

2. Ensure BEP implements a comprehensive, integrated project
   management function, in conjunction with FRB, Secret Service,
   and other relevant stakeholders, for the current NexGen $100
   note program and all future note designs. In this regard, input
   from the FRB, Secret Service, and other relevant stakeholders is
   necessary to ensure all aspects of the NexGen and other future
   note products are considered, including preproduction testing,
   production validation, the public education campaign, and
   issuance efforts. In addition, BEP, in coordination with its
   interagency partners, should update and finalize the 1998 MOU
   with FRB and the 2009 ICD draft charter.

   Management Response

   BEP will implement a comprehensive, integrated project
   management function for future note designs by creating a new
   design control process that includes staff from FRB and Secret
   Service as key team members. BEP implemented a production
   validation protocol in collaboration with the FRB and Secret
   Service to ensure preproduction testing met agreed upon
   standards for the NexGen $100 note program prior to returning
   to production. ICD will continue to coordinate with all relevant
   stakeholders for the NexGen $100 note release date to ensure
   the public education program managed by FRB is incorporated
   into BEP’s production plans. In addition, a draft ICD charter will
   be presented to the ICD members in March 2012. All comments
   will be incorporated and presented at the May 2012 ICD
   meeting for final approval. BEP and FRB are negotiating the final
   terms of the MOU and expect completion by March 31, 2012.



Improved Planning and Production Oversight Over NexGen $100 Note   Page 13
Is Critical (OIG-12-038)
   OIG Comment

   BEP’s actions, taken and planned, meet the intent of the
   recommendation. BEP, in coordination with its interagency
   partners, updated and finalized the 1998 MOU in December
   2011. We consider this recommendation to be open until after
   the ICD charter is approved and BEP executes all aspects of the
   comprehensive, integrated project management function for the
   NexGen $100 note.

3. Ensure that before awarding a contract to purchase single-note
   inspection equipment, BEP completes a comprehensive cost-
   benefit analysis including all costs, benefits, and risks of the
   available options for the disposition of the approximate 1.4
   billion finished notes that have not been accepted by FRB.
   Among other things, the analysis should consider the capability
   of the single-note inspection equipment to ensure notes meet
   quality standards for acceptance by FRB, as well as costs
   associated with things such as false rejects and labor. The
   option selected should be agreed to by all parties (e.g., FRB,
   Secret Service) and be made as expeditiously as possible.

   Management Response

   BEP expects to issue a request for proposal for the single-note
   inspection equipment that will include a provision requiring the
   vendor to demonstrate the capability to meet the FRB’s quality
   standards. BEP will also ensure that these requirements are
   acceptable to the Secret Service.

   Since January 2011, FRB has worked with BEP regarding the
   use of the single-note inspection equipment to process the
   NexGen $100 notes currently on hold. The business case for
   the request for proposal indicates that a recovery rate as low as
   30 percent justifies the acquisition of the equipment. Notably,
   BEP observed a 90 percent plus recovery rate during the BEP’s
   hand inspection of NexGen $100 notes. In addition, BEP’s long-
   term strategy of using the single-note inspection equipment for
   note reclamation further supports the acquisition.




Improved Planning and Production Oversight Over NexGen $100 Note   Page 14
Is Critical (OIG-12-038)
   OIG Comment

   BEP’s planned actions generally meet the intent of the
   recommendation. However, BEP will need to complete a
   comprehensive cost-benefit analysis including all costs,
   benefits, and risks of the options for the disposition of the
   finished notes. BEP will need to record an estimated date for
   completing its planned actions in JAMES.

                                ******

We appreciate the courtesies and cooperation extended by your
staff as we inquired about these matters. Major contributors to this
report are listed in appendix 5. A distribution list for this report is
provided as appendix 6. If you wish to discuss this report, you may
contact me at (202) 927-5904.


/s/
Kieu T. Rubb
Director, Procurement and Manufacturing Audits




Improved Planning and Production Oversight Over NexGen $100 Note   Page 15
Is Critical (OIG-12-038)
Appendix 1
Objectives, Scope, and Methodology




The objectives of our on-going audit of the Bureau of Engraving
and Printing (BEP) NexGen $100 note program are to assess (1) the
planning and implementation of the production process and the
events that led to the problems in the production process; (2) the
physical security over the notes that have been produced;
(3) BEP’s plans for the disposition of those notes; and (4) BEP’s
actions, taken and planned, to address the production problems.
This report focuses on objectives 1, 3, and 4.

To accomplish our audit, we conducted fieldwork at BEP’s Western
Currency Facility (WCF) in Forth Worth, Texas; BEP’s Eastern
Currency Facility (ECF) in Washington, DC; and the Board of
Governors of the Federal Reserve System (FRB) offices in
Washington, DC. We conducted our fieldwork from December
2010 through October 2011. Our audit scope covered the period
from January 2007 to October 2011.

To accomplish our audit objectives we performed the following
work:

•   In coordination with the FRB Office of Inspector General, we
    interviewed key BEP and FRB personnel involved with the
    design, product development, production, and security of the
    notes.

•   We conducted walk-throughs at both WCF and ECF to gain an
    understanding of the production process and observe security
    practices in place.

•   We reviewed the Government Accountability Office’s 1997
    testimony before the Congress regarding BEP’s production
    problems encountered with the design of the $50 note. We
    reviewed the testimony to gain an understanding of issues that
    were relevant to the redesign and production of the NexGen
    $100 note.

•   We requested cost-benefit analysis information from BEP related
    to the planned disposition of the approximate 1.4 billion finished
    notes that have not been accepted by FRB. Early in our audit,
    BEP did not have a plan. However, as piecemeal information
    was provided during the course of our audit, we reviewed the
    information to assess the adequacy of BEP’s analysis and
    related disposition decisions.

Improved Planning and Production Oversight Over NexGen $100 Note   Page 16
Is Critical (OIG-12-038)
Appendix 1
Objectives, Scope, and Methodology




•   We reviewed minutes related to the NexGen $100 note program
    from meetings of (1) BEP management, (2) the Interagency
    Currency Design Group (ICD), and (3) the Advanced Counterfeit
    Deterrence Steering Committee, to gain an understanding of the
    events and decisions made by BEP and its interagency partners
    in the design, development, and production of the note.

•   We reviewed the 1998 memorandum of understanding between
    FRB and BEP, and a draft of the 2009 ICD charter that defines
    the operating guidelines for BEP, FRB, and the United States
    Secret Service related to the design and development of
    currency.

•   We assessed BEP’s actions based on internal policies and
    procedures, and other interagency documents related to the
    design, product development, production, and security of the
    notes.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Improved Planning and Production Oversight Over NexGen $100 Note   Page 17
Is Critical (OIG-12-038)
                 Appendix 2
                 Timeline of Key Events




Time Period       Key Event
2000              • NexGen redesign project initiated.
September 2007    • The Secretary of the Treasury provides preliminary approval for the design
                    concept of NexGen $100 note.
2007 – 2010       • The Interagency Currency Design Group (ICD) coordinates product
                    development testing on various design and security features of the NexGen
                    $100 note.
August 2009       • The Board of Governors of the Federal Reserve System (FRB) places the fiscal
                    year 2010 order for the NexGen $100 note.
October 2009      • ICD meeting minutes discuss removing a security feature from the NexGen
                    $100 note.
                  • NexGen $100 note status reports provided to Bureau of Engraving and
                    Printing (BEP) management document problems with “trash” during
                    preproduction testing.
November 2009     • ICD and the Advanced Counterfeit Deterrence Steering Committee meeting
                    minutes document technical setbacks with the NexGen $100 note including,
                    among other things, problems with the 3-D security ribbon and “crinkling.”
                  • ICD meeting minutes discuss adding a new security feature to the note. Given
                    the short timeframe before production is planned to start, adequate testing of
                    the feature is not feasible without moving the production start date. BEP
                    representatives express concern about adding the feature without adequate
                    testing due to the potential for unintended consequences. ICD minutes
                    document that if BEP were to incorporate the feature, they would need a
                    letter from FRB instructing them to do so.
December 2009     • FRB approves quality standards for the NexGen $100 note on December 18,
                    2009.
January 2010      • BEP experiences problems with the 3-D security ribbon; however, ICD
                    considers the problem “within limits” and states BEP will continue to monitor
                    the issue with the goal that the paper supplier will help resolve the problem.
                  • BEP receives concurrence from FRB and the United States Secret Service to
                    add the new security feature assuming the risks involved with only limited
                    preproduction testing. Concurrence was reached by the parties during the
                    same week that production begins at BEP’s Eastern Currency Facility (ECF) in
                    Washington, DC.
                  • BEP starts production at ECF on January 12, 2010, and at the Western
                    Currency Facility (WCF) in Fort Worth, Texas on January 26, 2010.
                  • BEP experiences problems with “trash” during production.
April 2010        • NexGen $100 note design unveiling takes place April 21, 2010, and a
                    February 10, 2011, issuance date is announced.
                  • WCF notes sporadic creasing of the currency paper. At the time, the
                    occurrence of creasing is not considered significant.
June 2010         • WCF notes a higher occurrence of creasing.
July 2010         • ECF reports creasing, but at a lower occurrence level than at WCF.
                  • BEP is working with the paper supplier to determine the cause of the creasing
                    problem; the supplier stops NexGen $100 note paper production.




                 Improved Planning and Production Oversight Over NexGen $100 Note         Page 18
                 Is Critical (OIG-12-038)
                 Appendix 2
                 Timeline of Key Events




Time Period       Key Event
August 2010       • ECF and WCF report to the ICD that creasing has become a significant
                    problem at both facilities.
                  • BEP notifies Department of the Treasury officials of the creasing problem.
                  • BEP begins a series of tests aimed at resolving the creasing issue.
September 2010    • WCF stops production on September 2, 2010, because of creasing.
                  • ECF continues to run one production line, but closely scrutinizes the quality of
                    the notes. ECF uses the rule of thumb that if 50 percent of the sheets in a
                    load crease, the load will be removed from the production stream.
                  • Manual/visual inspection of the NexGen $100 notes begins and continues
                    through December 2010. The goal of the inspection is to gather data on the
                    creasing problem.
                  • During the manual/visual inspection BEP notes “crow’s feet” defects in some
                    of the NexGen $100 notes. Crow’s feet are defects which occur in the paper
                    surrounding the 3-D security ribbon. They appear as small wrinkles or creases
                    that initiate at the ribbon and grow outward at a small angle.
October 2010      • FRB announces, on October 1, 2010, a delay in the issue date of the NexGen
                    $100 note.
                  • ICD agrees that single-note inspection equipment is required to effectively and
                    consistently inspect and identify creased notes.
February 2011     • FRB modifies an existing contract with a management consulting firm to,
                    among other things, evaluate the paper creasing issue.
June 2011         • BEP’s paper supplier prepares documentation, dated June 7, 2011, disclosing
                    changes made to the NexGen $100 note currency paper during production in
                    early 2010.
September 2011    • Production validation begins using the validation plan established by BEP and
                    FRB, in consultation with FRB’s management consulting firm.




                 Improved Planning and Production Oversight Over NexGen $100 Note           Page 19
                 Is Critical (OIG-12-038)
Appendix 3
BEP Management Response




Improved Planning and Production Oversight Over NexGen $100 Note   Page 20
Is Critical (OIG-12-038)
Appendix 3
BEP Management Response




Improved Planning and Production Oversight Over NexGen $100 Note   Page 21
Is Critical (OIG-12-038)
Appendix 4
FRB Management Response




Improved Planning and Production Oversight Over NexGen $100 Note   Page 22
Is Critical (OIG-12-038)
Appendix 4
FRB Management Response




Improved Planning and Production Oversight Over NexGen $100 Note   Page 23
Is Critical (OIG-12-038)
Appendix 5
Major Contributors to This Report




Office of Audit

Deborah L. Harker, Audit Manager
Gregory J. Sullivan, Jr., Auditor-in-Charge
Eileen J. Kao, Program Analyst
Jeffrey Dye, Referencer

Office of Investigations

Sonja L. Scott, Special Agent
Jerome S. Marshall, Special Agent




Improved Planning and Production Oversight Over NexGen $100 Note   Page 24
Is Critical (OIG-12-038)
Appendix 6
Report Distribution




The Department of the Treasury

Deputy Secretary
Treasurer of the United States
Assistant Secretary for Management and Chief Financial Officer
Office of Strategic Planning and Performance Management
Office of Deputy Chief Financial Officer, Risk and Control Group

Bureau of Engraving and Printing

Director
Audit Liaison

Office of Management and Budget

OIG Budget Examiner

Board of Governors of the Federal Reserve System

Inspector General
Director, Division of Reserve Bank Operations and Payment
   Systems

Department of Homeland Security

Acting Inspector General
Director, United States Secret Service




Improved Planning and Production Oversight Over NexGen $100 Note   Page 25
Is Critical (OIG-12-038)
